No. 19-123

IN THE

Supreme Court of the United States
SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
On Writ of Certiorari to
the United States Court of Appeals
for the Third Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the
Brief of Lee C. Bollinger, Erwin Chemerinsky, Burt Neuborne, Robert C. Post
and Geoffrey Stone as Amici Curiae in Support of Respondents contains 5,265
words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d), in compliance with the word limit set forth in Supreme
Court Rule 33.1(g)(xiv).
I declare under penalty of perjury that the foregoing is true and
correct.

Executed on August 20, 2020.
/s/

Jonathan L. Marcus
Jonathan L. Marcus

